No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
FRANCISCO HILT and SEAN ALEXANDER,
Petitioners,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
On Petition for Writ of Certiorari to the
Ninth Circuit Court of Appeals
_______________________________________
PETITION FOR WRIT OF CERTIORARI

VERNA WEFALD
65 North Raymond Avenue,
Suite 320
Pasadena, California 91103
Telephone: 626-577-2658
Facsimile: 626-685-2562
Email: verna@vernawefald.com
Counsel of Record

GEORGE W. BUEHLER
State Bar No. 60701
BUEHLER & KASSABIAN, LLP
350 West Colorado Boulevard,
Suite 200
Pasadena, California 91105
Telephone: 626-219-0631
Email:
gbuehler@buehlerkassabian.com

QUESTIONS PRESENTED
1.
In an ATF sting operation, the government failed to disclose the
identity of the informant pretrial, and the defense was entrapment. The defense
discovered the informant’s identity only three business days before trial, with no
time to do any investigation. The informant was allowed to testify at trial under
a phony name. Post-conviction it was revealed that the informant’s testimony
about how he came to encounter the defendants was completely false and that
the government failed to disclose other critical impeachment evidence.
The question presented is this:
Does the government’s suppression of an informant’s identity and
impeachment evidence in a sting operation violate Rovario v. United States, 353
U.S. 53 (1957), Smith v. Illinois, 390 U.S. 129, 131 (1968), and Brady v.
Maryland, 373 U.S. 83 (1963)?
2. After Rehaif v. United States, 139 S.Ct. 2191 (2019), may the
government prove a defendant violated 18 U.S.C. § 922(g)(1) (possession of
firearm by someone convicted of a crime punishable by more than a year in
prison) or § 922(d)(1) (sale to a prohibited person) merely by the statement that
one has a “felony” conviction when the words “felon” or “felony” do not appear
anywhere in the statutes?

RELATED PROCEEDINGS
United States District Court
United States v. Francisco Hilt and Sean Alexander, CR-16-471RGK (C.D. Cal.)
Ninth Circuit Court of Appeals
United States v. Francisco Hilt and Sean Alexander, Ninth Circuit
Nos. 17-50258, 17-50353, 19-50308

i

TABLE OF CONTENTS
OPINION BELOW. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . 2
STATEMENT OF THE CASE. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

PETITIONERS HILT AND ALEXANDER WERE VICTIMS OF AN ATF
STING OPERATION AND THE INFORMANT’S TESTIMONY ABOUT
HOW HE CAME TO BE IN THEIR NEIGHBORHOOD TURNED OUT
POST-CONVICTION TO BE COMPLETELY FALSE . . . . . . . . . . . . . . 3

II.

HILT SAID HE WAS A “FELON” BUT THE WORD “FELON” DOES NOT
APPEAR ANYWHERE IN THE STATUTES AND THE GOVERNMENT
DID NOT PROVE HILT WOULD HAVE BEEN AWARE HE HAD BEEN
CONVICTED OF A CRIME PUNISHABLE BY MORE THAN A YEAR IN
PRISON . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE GOVERNMENT’S FAILURE TO TIMELY DISCLOSE THE
INFORMANT’S IDENTITY VIOLATED ROVARIO V. UNITED STATES,
SMITH V. ILLINOIS, AND BRADY V. MARYLAND . . . . . . . . . . . . . . 10

II.

AFTER REHAIF, MAY THE GOVERNMENT PROVE A DEFENDANT
VIOLATED 18 U.S.C. § 922(G)(1) (POSSESSION OF FIREARM BY
SOMEONE CONVICTED OF A CRIME PUNISHABLE BY MORE THAN
A YEAR IN PRISON) OR § 922(D)(1) (SALE TO A PROHIBITED
PERSON) MERELY BY THE STATEMENT THAT ONE HAS A
“FELONY” CONVICTION WHEN THE WORDS “FELON” OR “FELONY”
DO NOT APPEAR ANYWHERE IN THE STATUTES? . . . . . . . . . . . . 16

CONCLUSION. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Appendix A
Memorandum Decision, Filed November 2, 2020
ii

Appendix B
Order denying rehearing, Filed January 4, 2021
Appendix C
18 U.S.C. § 922

iii

TABLE OF AUTHORITIES

CASES
Brady v. Maryland, 373 U.S. 83 (1963) . . . . . . . . . . . . . . . . . . . . . . . . . 8, 10, 14
Clark v. Ricketts, 958 F.2d 851 (9th Cir. 1991) . . . . . . . . . . . . . . . . . . . . . . . . 12
Kyles v. Whitley, 514 U.S. 419 (1995) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Rovario v. United States, 353 U.S. 53 (1957) . . . . . . . . . . . . . . . . . 4, 7, 8, 10, 11
Strickland v. Washington, 466 U.S. 684 (1984) . . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Bagley, 473 U.S. 667 (1985) . . . . . . . . . . . . . . . . . . . . . . . . . . 15
United States v. Black, 733 F.3d 294 (9th Cir. 2013). . . . . . . . . . . . . . . 3, 16, 17
United States v. Poehlman, 217 F.3d 692 (9th Cir. 2000) . . . . . . . . . . . . . . . . . 4
United States v. Sellers, 906 F.3d 848 (9th Cir. 2018) . . . . . . . . . . . . . . . . . . . . 3
Smith v, Illinois, 390 U.S. 129 (1968) . . . . . . . . . . . . . . . . . . . . . . . . 8, 10, 11, 12
STATUTES
18 U.S.C. § 922 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17, 19, 20
18 U.S.C. §§ 922(d)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 3, 8, 16, 20
18 U.S.C. § 922(g)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8, 16, 18
18 U.S.C. § 924(a)(2) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
18 U.S.C. §3231 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
28 U.S.C. §1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
iv

California Penal Code § 17(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
California Health and Safety Code, § 11359. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

v

No.
_______________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
________________________________________
FRANCISCO HILT and SEAN ALEXANDER,
Petitioners,
vs.
UNITED STATES OF AMERICA,
Respondent
_______________________________________
PETITION FOR WRIT OF CERTIORARI

Petitioners Francisco Hilt and Sean Alexander respectfully prays
that a writ of certiorari issue to review the decision of the United States
Court of Appeals for the Ninth Circuit filed on November 2, 2020. The
decision is unpublished.
OPINION BELOW
On November 2, 2020, the Court of Appeals entered its decision
affirming Hilt and Alexanders’ convictions for selling firearms without a
license. It also affirmed Hilt’s convictions for being a felon in possession of a
firearm and selling a firearm to a prohibited person. Appendix A.
1

(memorandum decision) The petition for rehearing was denied on January 4,
2021. Appendix B.
JURISDICTION
On November 2, 2020, the Court of Appeals affirmed Petitioners’
conviction and sentence. Appendix A. Jurisdiction of this Court is invoked
under 28 U.S.C. §1254(1). The petition for rehearing was denied on January
4, 2021. Appendix B. This petition is due for filing on June 3, 2021. Order of
March 19, 2020. Jurisdiction existed in the District Court pursuant to 18
U.S.C. §3231 and in the Ninth Circuit Court of Appeals under 28 U.S.C.
§1291.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Fifth Amendment Due Process Clause
No person shall “be deprived of life, liberty, or property, without
due process of law”
Sixth Amendment Confrontation Clause
In all criminal prosecutions, the accused shall enjoy the right ... to
be confronted with the witnesses against him”
18 U.S.C. §§ 922(d)(1) and (g)(1)
See Appendix C

2

STATEMENT OF THE CASE
I.

PETITIONERS HILT AND ALEXANDER WERE VICTIMS OF AN
ATF STING OPERATION AND THE INFORMANT’S
TESTIMONY ABOUT HOW HE CAME TO BE IN THEIR
NEIGHBORHOOD TURNED OUT POST-CONVICTION TO BE
COMPLETELY FALSE
In this ATF sting operation, Hilt and Alexander were convicted of

selling firearms without a license [18 U.S.C. §§ 371, 922(a)(1)]. Hilt was also
convicted of being a felon in possession [§ 922(g)(1)] and selling to a
prohibited person [§ 922(d)(1)]. Appendix C. Hilt was sentenced to 13 years
and Alexander to 2 years. The evidence against them consisted of the
informant, who testified under a phony name, text messages, and video and
audio tapes.1
Sting operations are crimes “created and staged by ATF.” United
States v. Black, 733 F.3d 294, 303 (9th Cir. 2013). There is “widespread
criticism” of these ATF sting operations as “tawdry” and “disreputable”
because they “primarily target racial minorities” and do nothing to reduce
crime. United States v. Sellers, 906 F.3d 848, 857-859 (9th Cir. 2018).

1

This statement of facts is based on Hilt’s opening brief which cites to the
voluminous excerpts of record.
3

The defense was entrapment, which has two parts: whether the
government induced the defendant to commit the crime and whether the
defendant was predisposed. The government has the burden to disprove
entrapment. United States v. Poehlman, 217 F.3d 692, 697 (9th Cir. 2000).
That there were plenty of inducements was undisputed. As to predisposition,
however, the government introduced no evidence that either Hilt or
Alexander had any previous involvement with firearms.
Hilt and Alexander were African American United States citizens
who lived in an impoverished neighborhood in Compton. The informant who
set them up was a Mexican national, not lawfully in this country.
Prior to trial, Hilt moved for disclosure of the informant’s identity
under Rovario v. United States, 353 U.S. 53 (1957) (government must disclose
identity of informant who is sole participant in offense and defense is
entrapment). The court ordered the government to disclose his identity only
one week before trial and only if the government planned to call him as a
witness.
The government did disclose that the informant had worked as a
paid informant for LAPD for 14 years and was not lawfully in this country.
The government asserted he had one felony conviction, no drug problems, and

4

had previously testified in a state case. Post-conviction, it turned out that the
informant had serious drug problems, among other things.
One week before trial, the government still had not disclosed the
informant’s identity. Three business days before trial, Hilt’s lawyer told the
government he believed he had figured out who the informant was after a
tedious comparison of text messages and phone numbers. The next day, two
business days before trial, the government disclosed the name and docket
number of the state case where the informant testified, but no documents
from that case. Of course, at that late date it was impossible to do any
investigation, much less an adequate one, into the informant’s background
and credibility. It was also impossible to decide on how best to present the
defense. See Strickland v. Washington, 466 U.S. 684, 690 (1984) (defense
counsel must conduct an adequate investigation to make competent decisions
on behalf of their clients).
The informant, who testified under the phony name of “Duke,”
claimed that he moved to Hilt’s Compton neighborhood because it was the
only place he could find on Craigslist. He claimed that his longtime LAPD
handler was very worried he had moved there because it was a dangerous
location. The informant also claimed that he was shocked to see so much

5

crime taking place and suggested to LAPD that they open an investigation in
order to clean up the neighborhood.
To set up the sting, the informant pretended to be a street hustler
who sold cheap designer goods, contraband cigarettes, and the like from the
back of his car. He befriended Hilt, who was living in an abandoned house,
by buying him food and alcohol.2 Eventually, the informant asked if Hilt
could get him guns. He told Hilt he was connected to Armenian and Mexican
gangsters who would pay well. Hilt asked codefendant Alexander if he had
any gun connections. Alexander knew codefendant Jamie Thomas, who
bought all the guns in Arizona. Thomas pled guilty and did not testify.
On appeal, now that the informant’s true identity was known,
counsel conducted a post-conviction investigation of numerous court records.
This investigation proved that the informant’s testimony was false. It turned
out that he had serious drug problems, as well as mental problems (he tried
to kill himself by drinking Drano just before the trial), and was behaving
violently toward his family, causing his girlfriend to seek a restraining order.
It also turned out that the state case where he testified was dismissed after a
hung jury due to concerns about his credibility.

2

Because Hilt did not testify the jury did not learn that he was learning
disabled. Other than arguing reasonable doubt the defendants did not put on
a case.
6

The informant’s Craigslist story was a complete lie, as he was
clearly planted by the ATF in Hilt and Alexander’s neighborhood.
Transcripts from the state case where the informant had previously testified
proved that he not only grew up in the area, for many years he regularly set
up people for LAPD in nearby Nickerson Gardens, a notorious housing project
that is overrun by gangs and patrolled 24/7 by eight officers on foot. LAPD
officers (members of this same ATF taskforce) bragged at the preliminary
hearing that the informant was smart, charismatic, and handled himself well
in precarious situations. LAPD testimony also revealed that the informant’s
sole motivation was money, not a desire to ferret out crime. The drug charges
against the state defendant were dismissed when the judge ruled a second
jury would not convict him based on the informant’s testimony.
Transcripts from a federal case – where the court ordered the
informant to testify under his true name and the same ATF agents also
testified -- revealed that Hilt’s neighborhood was deliberately targeted by
ATF. Thus, Hilt and Alexander were not only denied the right to show the
informant’s testimony was untrue, they were unable to properly litigate their
pretrial motion to dismiss based on outrageous conduct.
On appeal, petitioners argued that the failure to disclose the
informant’s identity prior to trial violated Rovario. Allowing the informant to

7

testify under a phony name violated the Confrontation Clause under Smith v,
Illinois, 390 U.S. 129, 131 (1968). And, the failure to disclose the
impeachment material violated Brady v. Maryland, 373 U.S. 83 (1963). The
Ninth Circuit did not dispute that impeachment material had been
suppressed but held that the failure to disclose was not material to an
entrapment defense. It also rejected the Rovario and Smith v. Illinois claims.
II.

HILT SAID HE WAS A “FELON” BUT THE WORD “FELON”
DOES NOT APPEAR ANYWHERE IN THE STATUTES AND THE
GOVERNMENT DID NOT PROVE HILT WOULD HAVE BEEN
AWARE HE HAD BEEN CONVICTED OF A CRIME
PUNISHABLE BY MORE THAN A YEAR IN PRISON
Hilt was convicted of possessing a firearm in violation of 18

U.S.C. § 922(g)(1) (counts 3-7) and selling a firearm to a prohibited person in
violation of § 922(d)(1) (counts 11-13) because both Hilt and the informant
made statements that they had “felony” convictions. Hilt’s argument that the
evidence was insufficient under Rule 29 as to all counts was denied. Section
922(g)(1) makes it a crime to possess a firearm by anyone “convicted” of a
“crime punishable by imprisonment for a term exceeding one year.” Section
922(d)(1) makes it a crime to sell a firearm to a person who was “convicted” of

8

a “crime punishable by imprisonment for a term exceeding one year.”
Appendix C.
Although both Hilt and the informant said they had “felony”
convictions, the words “felon” or “felony” do not appear anywhere in those
statutes. Appendix C. Hilt’s one prior felony for possession of marijuana for
sale had been reduced to a misdemeanor by the time of trial under
California’s Proposition 47. Hilt spent less than 60 days in jail. The
government introduced a minute order that showed Hilt had been advised of
the maximum penalty when he pled guilty, but did not introduce any
evidence showing what the maximum penalty for a conviction of California
Health and Safety Code § 11359 was. Nor did the government introduce any
evidence or otherwise argue that the ordinary person would understand that
a “felony” is a crime punishable by more than one year in prison.
The informant said he pled guilty to get out of jail in his felony
conviction. There was no evidence he did very much time on this conviction.
Nor was there any evidence that the informant’s conviction was punishable
by more than a year in prison.

9

REASONS FOR GRANTING THE WRIT
I.

THE GOVERNMENT’S FAILURE TO TIMELY DISCLOSE THE
INFORMANT’S IDENTITY VIOLATED ROVARIO V. UNITED
STATES, SMITH V. ILLINOIS, AND BRADY V. MARYLAND
Rovario v. United States, 353 U.S. 53 (1957) requires the

government to timely disclose the identity of an informant who was an active
participant in the offense and where the defense was entrapment.
The Ninth Circuit held that the district court did not abuse its
discretion in denying Hilt’s pretrial motion to compel the production of the
informant’s identity because Hilt did not say why the informant’s identity
would further his entrapment defense. Appendix A at 3-4. The court said
that Hilt discovered the informant’s identity nine days after the court’s denial
of the motion to compel so he was not prejudiced. Appendix A at 4. The court
incorrectly failed to mention that the discovery of the informant’s identity
was only three business days before trial with no time to do any investigation.
The court did not cite Rovario but instead relied on irrelevant circuit court
decisions.
Rovario did not hold that a defendant must state how an
informant’s identity would help his entrapment defense. It goes without
saying that if a defendant doesn’t know the informant’s identity he can’t
10

investigate or prepare his defense. Rovario holds that the informant’s
identity must be disclosed if he is an active participant in the offense and his
identity may reveal an entrapment defense. 359 U.S. at 64.
We conclude that, under these circumstances, the trial court
committed prejudicial error in permitting the Government to
withhold the identity of its undercover employee in the face of
repeated demands for his disclosure.
Id. at 64-65.
The government regularly relies on Rovario to claim an
“informer’s privilege” when that privilege only relates to a concerned citizen.
359 U.S. at 59. A criminal informant in a government sting operation where
the defense is entrapment is not a concerned citizen. Allowing the
government to withhold the informant’s identity prevents a defendant from
preparing his defense. This cases is a perfect vehicle to clarify the holding of
Rovario, which is frequently misstated.
Hilt also argued that the Sixth Amendment right to confrontation
was violated under Smith v. Illinois, 390 U.S. 129, 131 (1968) when the
informant testified under a false name, the government did not disclose his
true identity pretrial, and defense counsel only figured out who he was three
business days before trial. The Ninth Circuit held that the Sixth Amendment
was not violated because the trial court only limited use of the informant’s
real name and the defendants could not show prejudice. “Any suggestion that
11

the jury would assume that Defendants threatened the informant since the
government did not use his name is wholly speculative.” Appendix A at 6.
The memorandum failed to cite Smith v. Illinois, 390 U.S. 129,
131 (1968), or any other case. In Smith, this Court reversed a drug conviction
on Sixth Amendment confrontation grounds when the court allowed the
informant to testify under the false name of James Jordan. The informant
said he purchased heroin from Smith with marked money provided by two
police officers. On cross-examination, Jordan admitted that was not his real
name. The court sustained the prosecutor’s objections to questions about his
real name and residence. Id. at 130-131.
Yet when the credibility of a witness is in issue, the very starting
point in ‘exposing falsehood and bringing out the truth’ through
cross-examination must necessarily be to ask the witness who he
is and where he lives. The witness’ name and address open
countless avenues of in-court examination and out-of-court
investigation. To forbid this most rudimentary inquiry at the
threshold is effectively to emasculate the right of crossexamination itself.
Smith v. Illinois, 390 U.S. at 131 (emphasis added).
In Clark v. Ricketts, 958 F.2d 851, 855 (9th Cir. 1991), the Ninth
Circuit held that a witness could testify under a false name because, “Prior to
trial, the government disclosed John Doe’s true name and felony record to
Clark. The defense had every opportunity to discover material which might
be used to impeach Doe’s credibility.” Id. In this case, however, the
12

government did not disclose the informant’s identity to allow for pretrial
investigation as to his credibility.
Moreover, the jurors would necessarily have to believe that the
reason he was testifying under a phony name was because the defendants
had threatened him. The informant testified he had earlier moved away from
Los Angeles because “my life got threatened.” (2 ER 199.) When the jury
heard he was testifying only as “Duke” they would have to believe that he was
still being threatened by none other than Hilt and Alexander. This is
particularly so since the informant himself testified he had safety concerns as
his family was living in that neighborhood. (2 ER 202-203.) Agent Wozniak
testified that the agents “always have concerns about safety” because the
informant was “putting his life on the line.” (1 ER 90.)
The prejudice to Hilt and Alexander by allowing the informant to
testify only as “Duke” was extreme and hardly speculative. The government
ended up having its cake and eating it too. It justified withholding the
informant’s name for safety concerns but then argued that the jury would not
think there were safety concerns when he testified under a phony name.
Certiorari should be granted to provide guidance to the lower courts when the
government seeks to allow an informant to testify under a false name.

13

Hilt further argued that Brady v. Maryland, 373 U.S. 83 (1963)
was violated when the government failed to disclose substantial impeachment
material about the informant that would have made the government unable
to carry its burden to prove predisposition. The Ninth Circuit did not dispute
that the government failed to disclose the transcripts and records of the state
case where he previously testified, and “evidence of the informant’s violence,
drug addiction, or mental illness.” Appendix A at 4. However, it found that
Brady was not violated because this evidence was not material. Id. The court
held that there was no reasonable probability that the outcome would have
been different or that the impeachment material would have put the case in a
different light. Appendix A at 4-5. “None of this evidence would demonstrate
inducement or a lack of predisposition as required for entrapment.” Appendix
A at 5.
The court failed to consider that the evidence of inducement was
plentiful as there was no dispute that the informant lured these impoverished
defendants with cheap designer goods, contraband cigarettes, food, and
liquor, not to mention the promise of a huge payday right before Christmas.
The first transaction was December 18. The court failed to acknowledge that
it was the government’s burden to prove the defendants were predisposed.

14

The court also failed to acknowledge that there was no evidence that either
Hilt or Alexander had previous involvement with firearms.
The Ninth Circuit failed to consider that if the jury had been told
that the informant’s story about having to move into a dangerous
neighborhood because that was the only place he could find on Craigslist was
a total lie it would not have found that the government carried its burden.
The informant’s story that he was shocked to see all this crime taking place
and suggested to his handlers that they clean up the neighborhood was also a
total lie. As it was, the jury was misled into believing that the informant was
some kind of guardian angel who rescued the neighborhood by bringing gun
runners out of hiding. In truth, crime was the informant’s bread and butter.
The failures to disclose were material and undermine confidence in the
outcome. United States v. Bagley, 473 U.S. 667, 682 (1985); Kyles v. Whitley,
514 U.S. 419, 434 (1995). Certiorari should be granted to consider the effect
of government subterfuge with respect to their informants in these
disreputable and tawdry ATF sting operations.

15

II.

AFTER REHAIF, MAY THE GOVERNMENT PROVE A
DEFENDANT VIOLATED 18 U.S.C. § 922(G)(1) (POSSESSION
OF FIREARM BY SOMEONE CONVICTED OF A CRIME
PUNISHABLE BY MORE THAN A YEAR IN PRISON) OR §
922(D)(1) (SALE TO A PROHIBITED PERSON) MERELY BY
THE STATEMENT THAT ONE HAS A “FELONY” CONVICTION
WHEN THE WORDS “FELON” OR “FELONY” DO NOT APPEAR
ANYWHERE IN THE STATUTES?
In Rehaif v. United States, 139 S.Ct. 2191 (2019), the Supreme

Court held that the scope of the word “knowingly” in § 924(a)(2):
applies both to the defendant’s conduct and to the defendant’s
status. To convict a defendant, the Government must therefore
show that the defendant knew he possessed a firearm and also
that he knew he had the relevant status when he possessed it.
Rehaif, 139 S.Ct. at 2194.
The Court’s reasons also included what “ordinary English
grammar” suggests, id. at 2196; the importance of requiring scienter, or a
“vicious will,” for criminal offenses, id. at 2196-97; and the need to separate
innocent from wrongful conduct, id. at 2197.
Rehaif’ was convicted for possessing a firearm by someone not
lawfully in this country. He had requested the jury be instructed that it had
to find he knew he was not lawfully in the country. The district court refused
16

to so instruct and the Eleventh Circuit affirmed. This Court reversed. “The
government must prove both that the defendant knew he possessed a firearm
and that he knew he belonged to the relevant category of persons barred from
possessing a firearm.” Id. at 2200.
The Court said its reasoning would also apply to a person “who
does not know that the crime is ‘punishable by imprisonment for a term
exceeding one year.’” Rehaif, 139 S.Ct. at 2198.
Hilt argued on appeal that the evidence was insufficient to prove
that he knew he had been convicted of a crime punishable by more than a
year in prison even if he said he was a “felon.” The word “felon” does not
appear anywhere in 18 U.S.C. § 922. The government did not put on any
evidence to show specifically what Hilt was told when he pled guilty. Nor did
it put on any evidence that either Hilt or the ordinary speaker of the English
language would understand that a “felon” is someone who had been convicted
of a crime punishable by more than a year in prison. The words “felon” or
“felony” are really just colloquial terms.
At trial, ATF Agent Thompson testified that Hilt admitted being
a convicted felon. (3 ER 433.)
The jury was instructed as follows:
Defendant Hilt is charged with Count 3 through 7 of the
indictment with being a felon in possession of a firearm, in
17

violation of 922(g)(1), Title 18 of the United States Code. In order
for the defendant to be found guilty of each of the counts, the
defendant must prove each of the following beyond a reasonable
doubt .... elements beyond reasonable doubt:
First, that the defendant knowingly possessed a firearm;
Second, that the firearm had been shipped or transported from
one state to another or between a foreign nation and the United
States; and
Third, at the time the defendant possessed the firearm, the
defendant had been convicted of a crime punishable by
imprisonment for a term exceeding one year; and
Fourth, that the defendant was not entrapped.
(3 ER 629, 6 ER 1110, emphasis added.)

18 U.S.C. § 922(g)(1) provides:
It shall be unlawful for any person –
who has been convicted in any court of, a crime punishable by
imprisonment for a term exceeding one year;
to ship or transport in interstate commerce, or possess in or
affecting commerce, any firearm or ammunition; or to receive any
firearm or ammunition which has been shipped or transported in
interstate or foreign commerce.
Appendix C at 7.
18 U.S.C. § 924(a)(2) provides that anyone who “knowingly
violates subsection (g) of section 922 “shall be” “imprisoned not more than 10
years.”

18

The word “felon” does not appear anywhere in 18 U.S.C. § 922.
(Appendix C at 1-24.)
California Penal Code § 17(a) provides:
A felony is a crime that is punishable with death, by
imprisonment in the state prison, or notwithstanding any other
provision of law, by imprisonment in a county jail under the
provisions of subdivision (h) of Section 1170. Every other crime or
public offense is a misdemeanor except those offenses that are
classified as infractions.
Black’s Law Dictionary (11th ed. 2019) gives numerous
definitions of “felony” as e.g. “A serious crime, usu. punishable by
imprisonment for more than one year or by death”; “every species of crime,
which occasioned at common law the forfeiture of lands or goods.”
Webster’s New Collegiate Dictionary (1976) variously defines
“felony” as a “grave crime” and one declared to be so by statute (and/or by
more than a year), etc.
The Ninth Circuit rejected this claim, stating that Hilt had
indeed been convicted of a felony and was informed of the “maximum
penalty.” Appendix A at 7. But the evidence (a minute order) did not show
what that maximum penalty was. The government might have introduced a
transcript of the plea colloquy but it did not.
The court also found that since the informant said he was a
“felon” Hilt had reasonable cause to believe he was selling a firearm to
19

someone convicted of a crime punishable by more than a year in prison.
Appendix A at 8. But here again, given that the statutes do not use the word
“felon” at all, and the word is merely colloquial and could mean any number
of things to the ordinary speaker, the government failed to prove that Hilt
was guilty of counts 3-11.
Certiorari should be granted to determine whether stating that
one is a “felon” without any evidence that the defendant knew he had been
convicted of a crime punishable by more than a year in prison and where he
spent a mere 60 days in jail, violates § 922. Similarly, when there is no
evidence that selling a firearm to someone who said he was a “felon,” without
specifying that the crime of conviction was punishable by more than a year in
prison and where there was no evidence this person actually spent much time
in jail, violates 18 U.S.C. § 922

.

It cannot be overemphasized that the word “felon” does not
appear anywhere in § 922 and there was no evidence presented that the
ordinary speaker of the English language would understand the word “felon”
to mean someone convicted of a crime punishable by more than a year in
prison. This is the perfect case to clear up this confusion and to provide some
guidance to the lower courts in setting forth what the government must prove
to get a conviction under § 922.

20

CONCLUSION
For the reasons expressed above, Petitioners respectfully request
that a writ of certiorari issue to review the judgment of the Ninth Circuit
Court of Appeals.
Date: June 1, 2021

Respectfully submitted,

VERNA WEFALD
Counsel for Petitioner Francisco Hilt
Counsel of Record

GEORGE BUEHLER
Counsel for Petitioner Sean Alexander

21

